Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





      RETAIL PHARMACY 

  PARTICIPATION IN MEDICARE 

  PART D PRESCRIPTION DRUG 

        PLANS IN 2006 





                    Daniel R. Levinson

                     Inspector General 


                       June 2007 

                     OEI-05-06-00320

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
 Δ         E X E C U T I V E                                                   S U M M A R Y                                             



                                     OBJECTIVE
                                     1.	 To determine the extent to which retail pharmacies participate in
                                         Medicare Part D stand-alone prescription drug plans (PDPs).

                                     2.	 To determine how many Medicare Part D stand-alone PDPs are
                                         offered by participating retail pharmacies.


                                     BACKGROUND
                                     The Medicare Prescription Drug, Improvement, and Modernization Act
                                     of 2003 (MMA) makes comprehensive prescription drug coverage under
                                     Medicare Part D available to all Medicare beneficiaries through
                                     stand-alone PDPs or Medicare Advantage plans.

                                     Under Part D, private sponsors contract with pharmacies to create
                                     pharmacy networks that provide Part D-covered drugs to beneficiaries
                                     enrolled in their plans. To ensure that pharmacy networks offer
                                     beneficiaries access to retail pharmacies, MMA required the Centers for
                                     Medicare & Medicaid Services (CMS) to establish retail pharmacy
                                     access standards.

                                     To provide beneficiaries with a choice of plans and sponsors, MMA
                                     requires at least two plans offered by different sponsors to be available
                                     in every region. In 2006, 1,429 PDPs were available, with beneficiaries
                                     in 29 of the 34 PDP regions having a choice of at least 40 PDPs.
                                     Additionally, beneficiaries had a choice of at least 15 different plan
                                     sponsors in every region except Alaska (11) and Hawaii (12).

                                     To examine beneficiaries’ access to retail pharmacies dispensing
                                     Part D-covered drugs, we determined the extent to which retail
                                     pharmacies participate in PDPs. To assess beneficiaries’ choice of
                                     plans, we determined the number of plans offered by retail pharmacies.
                                     To determine if characteristics of pharmacies, such as location or
                                     ownership, affect participation rates, we compared rates of participation
                                     between retail pharmacies in metropolitan and nonmetropolitan
                                     counties and between independent and chain retail pharmacies.




OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   i
E X E C U T I V E                  S U           M M A R Y 




                     FINDINGS
                     Nearly all retail pharmacies participate in Medicare Part D.
                     Ninety-seven percent of retail pharmacies participate in at least one
                     PDP. Moreover, most nonparticipating retail pharmacies are located
                     within 5 miles of a participating retail pharmacy.

                     Retail pharmacies in metropolitan and nonmetropolitan counties
                     participate at similarly high rates. However, there are approximately
                     four times as many retail pharmacies in metropolitan counties as in
                     nonmetropolitan counties. In areas where fewer retail pharmacies are
                     located, beneficiary access to retail pharmacies that dispense
                     Part D-covered drugs will also be more limited.
                     Seventy percent of participating retail pharmacies offer beneficiaries
                     the choice of all available PDPs in their region. The majority of
                     participating retail pharmacies offer beneficiaries the choice of every
                     PDP available in their region. Retail pharmacies in metropolitan and
                     nonmetropolitan counties offer beneficiaries the choice of all available
                     PDPs at similarly high rates.

                     Fewer independent retail pharmacies offer beneficiaries the choice of all
                     PDPs available in their region compared to chain pharmacies.
                     Forty-four percent of independent retail pharmacies offer beneficiaries
                     the choice of every PDP available in their region compared to 84 percent
                     of chain retail pharmacies. However, most independent and chain retail
                     pharmacies offer beneficiaries the choice of at least half of the available
                     PDPs.


                     CONCLUSION
                     Our findings indicate that beneficiaries’ access to retail pharmacies that
                     dispense Part D-covered drugs does not appear to be limited by retail
                     pharmacies’ participation in PDPs. Nearly all retail pharmacies
                     participate in at least one PDP and 70 percent of participating retail
                     pharmacies offer beneficiaries the choice of all available PDPs in their
                     region. Further, 97 percent of participating retail pharmacies offer
                     beneficiaries the choice of at least half of available PDPs. Although
                     having fewer retail pharmacies located in an area may limit beneficiary
                     access to retail pharmacies, our findings suggest that Part D does not
                     further limit beneficiary access.




       OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                       ii
E X E C U T I V E                  S U           M M A R Y 




                     AGENCY COMMENTS
                     CMS stated that it was pleased with our findings that beneficiary access
                     to retail pharmacies dispensing Part D-covered drugs does not appear to
                     be limited by retail pharmacies’ participation in PDP networks.
                     Additionally, CMS reiterated its commitment to ensuring that Part D
                     beneficiaries have access to retail pharmacies.




       OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                       iii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   Nearly all retail pharmacies participate . . . . . . . . . . . . . . . . . . . . . 8 


                   Seventy percent offer beneficiaries a choice of all PDPs . . . . . . . . . 9 



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   A: TRICARE Classifications and Urban Influence Codes . . . . . . 12 


                   B: Map of Metropolitan and Nonmetropolitan Counties . . . . . . . 14 


                   C: Analyses by Urban Influence Codes . . . . . . . . . . . . . . . . . . . . . 15 


                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

 Δ          I N T R O D U C T I O N                                                                   



                                      OBJECTIVE
                                      1.	 To determine the extent to which retail pharmacies participate in
                                          Medicare Part D stand-alone prescription drug plans (PDPs).

                                      2.	 To determine how many Medicare Part D stand-alone PDPs are
                                          offered by participating retail pharmacies.


                                      BACKGROUND
                                      The Medicare Prescription Drug Benefit
                                      Effective January 1, 2006, the Medicare Prescription Drug,
                                      Improvement, and Modernization Act of 2003 (MMA) made
                                      comprehensive prescription drug coverage under Medicare Part D
                                      available to all 43 million Medicare beneficiaries.1 Beneficiaries
                                      generally have the option to enroll either in a stand-alone PDP and
                                      receive all other benefits through traditional Medicare fee-for-service, or
                                      in a Medicare Advantage plan (MA plan) and receive all Medicare
                                      benefits (including drug coverage) through managed care.2 In June
                                      2006, the Centers for Medicare & Medicaid Services (CMS) reported
                                      that 16 million beneficiaries were enrolled in a PDP and an additional
                                      6 million were enrolled in an MA plan.3
                                      To provide Part D drug coverage, private sponsors contract with CMS to
                                      offer plans in one or more of the PDP or MA plan regions. CMS has
                                      designated 34 PDP regions and 26 MA plan regions.4 Each region
                                      covers one State at a minimum, and some regions cover multiple States.

                                      Within each region, sponsors may compete for beneficiary enrollment by
                                      offering several plans with a variety of features. Features may include
                                      different premiums, cost sharing, formularies, and pharmacy networks.
                                      In 2006, 1,429 PDPs were available nationwide, ranging from 27 to

                                         1   Pub. L. No. 108-173.
                                         2   42 U.S.C. § 1395w–101.
                                         3   News Release, Department of Health and Human Services, “Over 38 Million
                                             People With Medicare Now Receiving Prescription Drug Coverage”
                                             (June 14, 2006). Available online at
                                             http://www.hhs.gov/news/press/2006pres/20060614.html. Accessed
                                             December 21, 2006.
                                         4   News Release, Department of Health and Human Services, “HHS Announces
                                             Regions To Administer New Medicare Prescription Drug Benefit and
                                             Medicare Advantage Program” (December 6, 2004). Available online at
                                             http://www.hhs.gov/news/press/2004pres/20041206.html. Accessed
                                             December 21, 2006.


OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   1
    I N T R O D                   U C T                I O N


                                      52 PDPs per region. In 29 of the 34 regions, beneficiaries had a choice
                                      of at least 40 PDPs. In addition, beneficiaries had a choice of at least
                                      15 different sponsors in every region except Alaska (11) and
                                      Hawaii (12).5
                                      Although sponsors are allowed broad discretion to deliver drug coverage
                                      under Medicare Part D, the MMA established standards regarding
                                      certain program features, such as retail pharmacy access and choice of
                                      plans and sponsors.
                                      Retail Pharmacy Access Standards
                                      To provide Part D drug coverage, sponsors contract with pharmacies to
                                      create pharmacy networks that provide Part D-covered drugs to
                                      beneficiaries enrolled in their plans. A sponsor must offer its standard
                                      contract to any pharmacy that is willing to participate in its pharmacy
                                      network.6 Sponsors may contract with many different types of
                                      pharmacies, such as retail, institutional, or mail-order pharmacies.

                                      To ensure that pharmacy networks offer beneficiaries access to retail
                                      pharmacies7 (as opposed to institutional or mail-order pharmacies) that
                                      dispense Medicare Part D-covered drugs, Federal law required CMS to
                                      establish retail pharmacy access standards based on the standards used
                                      by the Department of Defense’s TRICARE Retail Pharmacy program,
                                      the health care plan for military personnel and their families.8




                                         5   Kaiser Family Foundation, “The Growth of Private Plans in Medicare, 2006.”
                                             Available online at http://www.allhealth.org/briefingmaterials/Kaiser-
                                             GrowthofPrivatePlansinMedicare-255.pdf. Accessed December 7, 2006.
                                         6   42 U.S.C. § 1395w–104(b)(1)(a).
                                         7   As defined in the final regulation [42 CFR § 423.100], a retail pharmacy is
                                             “any licensed pharmacy that is not a mail order pharmacy from which Part D
                                             enrollees could purchase a covered Part D drug without being required to
                                             receive medical services from a provider or institution affiliated with that
                                             pharmacy.”
                                         8   42 U.S.C. § 1395w–104(b)(1)(C)(ii).


OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   2
I N T R O D            U C T                I O N 





                                       As such, CMS established retail pharmacy access standards9 requiring
                                       each plan to have pharmacy networks with a sufficient number of retail
                                       pharmacies to meet the following criteria at the State level:

                                      •	       At least 90 percent of Medicare beneficiaries, on average, in urban
                                               areas live within 2 miles of a network retail pharmacy;

                                      •	       At least 90 percent of Medicare beneficiaries, on average, in
                                               suburban areas live within 5 miles of a network retail pharmacy;
                                               and

                                      •	       At least 70 percent of Medicare beneficiaries, on average, in rural
                                               areas live within 15 miles of a network retail pharmacy.10
                                       Every year, CMS reviews PDPs’ compliance with the retail pharmacy
                                       access standards to ensure that beneficiaries maintain access to retail
                                       pharmacies that dispense Part D-covered drugs.
                                       Guaranteed Choice of Plans and Sponsors
                                       To ensure that Medicare beneficiaries have a choice of plans and
                                       sponsors, Federal law requires that at least two plans offered by
                                       different sponsors be available in every region, and at least one of those
                                       plans must be a PDP.11
                                       Federal law requires the creation of a “fallback plan” whenever two
                                       plans from different sponsors are not available in a region.12 Given that
                                       beneficiaries had a choice of between 27 and 52 PDPs in 2006, fallback
                                       plans were unnecessary.
                                       Related Office of Inspector General Work
                                       In addition to conducting this study, the Office of Inspector General
                                       (OIG) is conducting work that will compare reimbursements to
                                       independent and franchise retail pharmacies with the prices they pay
                                       for drugs, including dispensing fees. Additionally, OIG will explore


                                           9 To meet the access standards, plans may contract with certain nonretail
                                             pharmacies, including pharmacies operated by the Indian Health Service,
                                             Indian tribes, and urban Indian Organizations (I/T/U);, Federally Qualified
                                             Health Centers (FQHC); and Rural Health Centers (RHC).
                                             42 CFR § 423.120(a)(2). However, CMS stated its intent to “review Part D
                                             plans’ proposed pharmacy networks to ensure that their inclusion of I/T/U,
                                             FQHC, and RHC pharmacies does not substitute for the inclusion in Part D
                                             plan networks of retail pharmacies.” Medicare Prescription Drug Benefit,
                                             70 Fed. Reg., 4194, 4249 (January 28, 2005).
                                           10 42 CFR § 423.120(a), 42 CFR § 423.100. 


                                           11 42 U.S.C. §1395w–103. 


                                           12 42 U.S.C. § 1395w–103. 




 OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   3
    I N T R O D                   U C T                I O N


                                      contracting provisions of PDPs that include independent and franchise
                                      retail pharmacies in their networks.


                                      METHODOLOGY
                                      Scope
                                      This study assessed pharmacy participation in PDPs available in 2006.
                                      We limited our analysis to pharmacies identified as retail. We did not
                                      include types of pharmacies that serve specific populations and are not
                                      generally open to the public.13 We did not assess retail pharmacy
                                      participation in MA plans. Additionally, we did not verify whether the
                                      PDPs met CMS’s retail pharmacy access standards.
                                      Data Collection
                                      We obtained a comprehensive list of all State-licensed pharmacies
                                      located within the 50 States or the District of Columbia as of
                                      October 2, 2006, from the National Council for Prescription Drug
                                      Programs (NCPDP). The list included pharmacies’ unique NCPDP
                                      pharmacy numbers and other descriptive information used to identify
                                      retail pharmacies and classify pharmacies as independent or chain.

                                      For a list of all retail pharmacies that participate in each PDP’s
                                      pharmacy network, we obtained the October 2006 Pharmacy Cost file
                                      from CMS. Sponsors may supply an updated list of network pharmacies
                                      as frequently as every 2 weeks. In the Pharmacy Cost file, network
                                      pharmacies are identified by their unique NCPDP pharmacy numbers.

                                      Because of pharmacies’ opening and closing and the time lag associated
                                      with reporting these events, there is some potential for pharmacies to be
                                      on one list and not the other. To limit this potential difference, we used
                                      files from the same time period, October 2006.
                                      Data Analysis
                                      Using each pharmacy’s unique NCPDP pharmacy number, we matched
                                      retail pharmacies listed on the Pharmacy Cost file to the appropriate
                                      address and descriptive information supplied in the NCPDP file.

                                      NCPDP categorizes pharmacies by type, such as retail, institutional, or
                                      mail-order. We limited our analysis to pharmacies identified as retail.
                                      Of the 73,398 pharmacies included in the NCPDP file, 58,768 were
                                      classified as retail.


                                         13   Excluded pharmacies include I/T/U, FQHC, and RHC pharmacies.


OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   4
      I N T R O D                     U C T                I O N

                                      NCPDP data also indicate whether the pharmacy is independent, chain,
                                      or franchise.14 For our analysis of pharmacy participation rates of
                                      independent and chain pharmacies, we grouped franchise pharmacies
                                      with independent pharmacies because franchise pharmacies are
                                      independently owned. Of the 58,768 retail pharmacies, 21,727 were
                                      classified as independent or franchise (hereafter referred to as
                                      independent) and 37,041 were classified as chain.
                                      Retail Pharmacy Participation in PDPs. To examine beneficiaries’ access to
                                      retail pharmacies dispensing Part D-covered drugs, we determined the
                                      extent to which retail pharmacies participate in PDPs. To accomplish
                                      this, we calculated the percentage of retail pharmacies participating in
                                      at least one PDP.

                                      To determine the impact of nonparticipation of retail pharmacies on
                                      beneficiary access, we compared the location of retail pharmacies not
                                      participating to the location of participating retail pharmacies. Each
                                      retail pharmacy’s address, as listed in the NCPDP file, was geocoded
                                      using the Geographic Information System ArcGIS 9.1 software.15
                                      We improved our geocoding by replacing post office box addresses with
                                      actual street addresses, when possible. For those addresses that could
                                      not be geocoded based on the actual street address, we geocoded based
                                      on ZIP Code.16 Of the 58,768 retail pharmacies, 77 percent were
                                      geocoded at the address level and 23 percent were geocoded at the ZIP
                                      Code level. Six retail pharmacies could not be geocoded.

                                      For our analysis of the distance between participating and
                                      nonparticipating retail pharmacies, we determined the number of
                                      nonparticipating retail pharmacies farther than 5 miles from a
                                      participating retail pharmacy. First, we determined the number of
                                      nonparticipating retail pharmacies geocoded at the street level that

                                         14 As defined by NCPDP, an independent pharmacy is part of a group of fewer
                                           than three pharmacies under common ownership. A chain pharmacy is part
                                           of a group of four or more pharmacies under common ownership. A franchise
                                           pharmacy is independently owned but has a franchise agreement with
                                           another company to receive marketing, training, and/or other support.
                                         15 Geocoding is the process of assigning geographic coordinates (i.e., latitude
                                           and longitude) to an address. The more specific the address information used
                                           to geocode (i.e., the entire street address versus only the ZIP Code), the more
                                           accurate the geographic coordinates.
                                         16 We used population-weighted ZIP Code centroids from Great Data to

                                           geocode at the ZIP Code level. A population-weighted ZIP Code centroid is
                                           the center of the ZIP Code, taking into account population densities within
                                           the ZIP Code.


OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   5
    I N T R O D 
U C T                                 I O N


                                      were farther than 5 miles from a participating retail pharmacy geocoded
                                      at the street level. Second, to be conservative, we counted
                                      nonparticipating retail pharmacies geocoded at the ZIP Code level as
                                      farther than 5 miles from a participating retail pharmacy because we
                                      were unable to precisely geocode their location. As a result, we may
                                      have overestimated the number of nonparticipating retail pharmacies
                                      farther than 5 miles from a participating retail pharmacy, given that
                                      70 percent of nonparticipating retail pharmacies geocoded at the ZIP
                                      Code level are located in metropolitan counties.

                                      To determine whether there are differences between rural and urban
                                      beneficiaries’ access to participating retail pharmacies, we compared
                                      retail pharmacy participation rates using the Economic Research
                                      Service’s urban influence codes. An urban influence code is a 12-level
                                      county classification scheme, divided into metropolitan and
                                      nonmetropolitan counties, that captures differences in population size,
                                      urbanization, and access to larger communities.

                                      Although CMS uses TRICARE classifications of rural, suburban, and
                                      urban for Part D, as required by law, some commenters on the relevant
                                      proposed rule contended that the TRICARE classifications are broad
                                      and define as rural a number of beneficiaries who actually are not.17 In
                                      comparison, urban influence codes provide a narrower definition of
                                      rural, capture greater variation in rural areas, and are commonly used
                                      by rural health researchers. For a comparison between retail
                                      pharmacies’ TRICARE classifications and urban influence codes, see
                                      Appendix A.

                                      We determined each retail pharmacy’s urban influence code by
                                      matching its ZIP Code with the appropriate county using two files—one
                                      supplied by CMS and the other purchased from Great Data, a
                                      third-party vendor of ZIP Code data. We were unable to determine the
                                      county for four retail pharmacies.

                                      For ease of reading, we present our analyses by metropolitan and
                                      nonmetropolitan counties in the body of the report. For a map of
                                      metropolitan and nonmetropolitan counties, see Appendix B. For
                                      greater detail, we also provide each analysis by all 12 urban influence
                                      codes in Appendix C.



                                         17    Medicare Prescription Drug Benefit, 70 Fed. Reg. 4194, 4247-4248
                                              (January 28, 2005).


OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   6
I N T R O D               U C T                I O N


                                      To determine whether beneficiary access to retail pharmacies
                                      participating in a PDP is potentially limited because of a lack of
                                      participation by independent pharmacies, we compared rates of
                                      participation between independent and chain pharmacies.
                                      Number of PDPs offered by retail pharmacies. To assess beneficiaries’ choice
                                      of plans, we determined the number of PDPs offered by retail pharmacies.
                                      As with participation rates, we also analyzed the data by urban influence
                                      codes and independent/chain classifications.
                                      Standards
                                      This study was conducted in accordance with the “Quality Standards for
                                      Inspections” issued by the President’s Council on Integrity and
                                      Efficiency and the Executive Council on Integrity and Efficiency.




OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S   7
 Δ           F I N D I N G S 




           Nearly all retail pharmacies participate in                         Ninety-seven percent of retail
                                     Medicare Part D                           pharmacies throughout the country
                                                                               participate in at least one PDP. Of
                                         the 58,768 retail pharmacies in the United States, only 1,478 do not
                                         participate in any PDP. The high rate of retail pharmacy participation
                                         suggests that beneficiaries’ access to retail pharmacies that dispense
                                         Part D-covered drugs is not limited by Part D.

                                         Moreover, most nonparticipating retail pharmacies are located near a
                                         participating retail pharmacy. Of the 1,478 retail pharmacies that do
                                         not participate in a PDP, fewer than one-third are farther than 5 miles
                                         from a participating retail pharmacy. Furthermore, 80 percent of
                                         nonparticipating pharmacies are located in metropolitan counties.

                                         Table 1, below, provides a summary of retail pharmacy participation
                                         rates by pharmacy type and county classification.


  Table 1. Retail Pharmacy Participation Rates by Pharmacy Type and County Classification
                                                 Overall Percentage of                         Percentage of Independent                            Percentage of Chain
                                                     Retail Pharmacies                                 Retail Pharmacies                               Retail Pharmacies
  County Classification                          Participating in a PDP                            Participating in a PDP                          Participating in a PDP
  Metropolitan                                                                    98%                                                94%                            99%
  Nonmetropolitan                                                                 97%                                                96%                           100%
    Overall Total                                                                 97%                                                94%                            99%
  Source: OIG analysis of retail pharmacy participation in PDPs, 2006.



                                         Retail pharmacies in metropolitan and nonmetropolitan counties participate
                                         at similarly high rates
                                         Almost all retail pharmacies participate in a PDP, regardless of whether
                                         they are located in metropolitan or nonmetropolitan counties.
                                         Ninety-seven percent of retail pharmacies in nonmetropolitan counties
                                         and 98 percent of retail pharmacies in metropolitan counties participate
                                         in a PDP. Additionally, even pharmacies in the most rural areas, when
                                         broken out by urban influence codes, have high rates of participation.
                                         Table 5 in Appendix C presents a detailed analysis of retail pharmacy
                                         participation rates by urban influence codes.

                                         Even though retail pharmacy participation rates are similar, there are
                                         approximately four times as many retail pharmacies in metropolitan
                                         counties as in nonmetropolitan counties. Additionally, 150 of
                                         2,052 nonmetropolitan counties do not have any retail pharmacies. In
                                         areas where fewer retail pharmacies are located, beneficiary access to

OEI-05-06-00320      R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S                            8
       F    I N D I N G                         S


                                          retail pharmacies dispensing Part D-covered drugs will also be more
                                          limited.
                                          Almost all independent and chain retail pharmacies in metropolitan and
                                          nonmetropolitan counties participate
                                          Overall, independent and chain retail pharmacies participate at
                                          similarly high rates: 94 percent of independent retail pharmacies and
                                          99 percent of chain retail pharmacies participate in a PDP.

                                          Regardless of whether they are located in metropolitan or
                                          nonmetropolitan counties, independent and chain retail pharmacies
                                          participate at high rates. Ninety-six percent of independent retail
                                          pharmacies and 100 percent of chain retail pharmacies in
                                          nonmetropolitan counties participate in a PDP. Similarly, independent
                                          and chain retail pharmacies in metropolitan counties have high rates of
                                          participation. Table 6 in Appendix C presents a detailed analysis of
                                          independent and chain retail pharmacy participation rates by urban
                                          influence codes.



            Seventy percent of participating retail                               Overall, the majority of
   pharmacies offer beneficiaries the choice of all                               participating retail pharmacies
  available prescription drug plans in their region                               offer beneficiaries the choice of
                                                                                  every PDP available in their
                                                                                  region. In addition, 97 percent of
                                          participating retail pharmacies overall offer beneficiaries the choice of
                                          at least half of the PDPs available in their region. With 40 or more
                                          PDPs available in most regions, the majority of participating retail
                                          pharmacies offer beneficiaries the choice of a significant number of
                                          PDPs.
                                          Table 2, below, provides a summary of beneficiary choice in PDPs
                                          overall and by participating pharmacy type and county classification.


    Table 2. Beneficiary Choice in PDPs by Participating Pharmacy Type and County
    Classification
                                         Percentage of Retail Pharmacies That                                           Percentage of Retail Pharmacies That
                                         Participate in 100% of PDPs in Region                                          Participate in 50% of PDPs in Region

    County Classification                         Overall          Independent                       Chain                 Overall         Independent    Chain
    Metropolitan                                       70%                          41%                 83%                    97%                  93%    99%
    Nonmetropolitan                                    67%                          49%                 88%                    97%                  94%   100%
      Overall Total                                    70%                          44%                 84%                    97%                  93%    99%
    Source: OIG analysis of retail pharmacy participation in PDPs, 2006.




OEI-05-06-00320       R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S                 9
F   I N D I N G 
S


                      Retail pharmacies in metropolitan and nonmetropolitan counties offer
                      beneficiaries the choice of all available PDPs at similarly high rates
                      The majority of participating retail pharmacies, regardless of whether
                      they are located in metropolitan or nonmetropolitan counties, offer
                      beneficiaries the choice of all available PDPs. Seventy percent of
                      participating retail pharmacies in metropolitan counties and 67 percent
                      of participating retail pharmacies in nonmetropolitan counties offer
                      beneficiaries the choice of every PDP available in their region.

                      Moreover, almost all participating retail pharmacies, regardless of
                      whether they are located in metropolitan or nonmetropolitan counties,
                      offer beneficiaries the choice of at least half of available PDPs.
                      Ninety-seven percent of participating retail pharmacies in both
                      metropolitan and nonmetropolitan counties offer beneficiaries the choice
                      of at least half of the PDPs available in their region. Additionally,
                      90 percent of participating retail pharmacies in the most rural areas,
                      when broken out by urban influence codes, offer beneficiaries the choice
                      of at least half of available PDPs. Table 7 in Appendix C presents a
                      detailed analysis of beneficiary choice in PDPs by urban influence codes.
                      Fewer independent retail pharmacies participate in every PDP available
                      compared to chain retail pharmacies
                      Forty-four percent of participating independent retail pharmacies offer
                      beneficiaries the choice of every PDP available in their region, compared
                      to 84 percent of participating chain retail pharmacies. This is similar to
                      the ratio of independent to chain retail pharmacy participation rates
                      broken out by metropolitan and nonmetropolitan counties.

                      However, 93 percent of participating independent retail pharmacies and
                      99 percent of participating chain retail pharmacies offer beneficiaries
                      the choice of at least half of the PDPs available. Given that between
                      27 and 52 PDPs are available in each region, the vast majority of
                      participating independent and chain retail pharmacies offer
                      beneficiaries, at a minimum, a choice of between 14 to 26 PDPs,
                      depending on the region. Table 8 in Appendix C presents a detailed
                      analysis of beneficiary choice in PDPs by participating pharmacy type
                      and urban influence codes.




        OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                        10
Δ   C O N C L U S I O N                                         


                   Our findings indicate that beneficiaries’ access to retail pharmacies that
                   dispense Part D-covered drugs does not appear to be limited by retail
                   pharmacies’ participation in PDPs. Nearly all retail pharmacies
                   participate in at least one PDP, and 70 percent of participating retail
                   pharmacies offer beneficiaries the choice of all available PDPs in their
                   region. Further, 97 percent of participating retail pharmacies offer
                   beneficiaries the choice of at least half of available PDPs. Although
                   having fewer retail pharmacies located in an area may limit beneficiary
                   access to retail pharmacies, our findings suggest that Part D does not
                   further limit beneficiary access.

                   Additionally, although independent and chain retail pharmacies have
                   high rates of participation and offer beneficiaries a choice of plans, our
                   analysis shows that a lower proportion of independent retail pharmacies
                   offer beneficiaries the choice of all available plans. OIG is conducting
                   additional work to further explore the interaction between independent
                   retail pharmacies and the Part D prescription drug program.


                   AGENCY COMMENTS
                   CMS stated that it was pleased with our findings that beneficiary access
                   to retail pharmacies dispensing Part D-covered drugs does not appear to
                   be limited by retail pharmacies’ participation in PDP networks. CMS
                   also stated that it was pleased that the findings do not demonstrate
                   significant differences in participation rates in metropolitan versus
                   nonmetropolitan counties or between chain and independent
                   pharmacies. Additionally, CMS reiterated its commitment to ensuring
                   that Part D beneficiaries have access to retail pharmacies. The full text
                   of CMS’ comments is in Appendix D.




     OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                     11
Δ   A P P E N D I X ~ A                                        




                            COMPARISON OF RETAIL PHARMACIES’ TRICARE
                            CLASSIFICATIONS AND URBAN INFLUENCE CODES
                            TRICARE classifications and urban influence codes are both used to
                            classify areas as urban or rural. According to TRICARE, an urban area
                            is defined as any ZIP Code with more than 3,000 persons per square
                            mile. A suburban area is defined as any ZIP Code with between
                            1,000 and 3,000 persons per square mile. A rural area is defined as any
                            ZIP Code with fewer than 1,000 persons per square mile.

                            In contrast, urban influence codes are a 12-level county classification
                            system that broadly classifies counties as metropolitan or
                            nonmetropolitan. Metropolitan counties are further divided into two
                            groups by the size of the metropolitan area. Nonmetropolitan counties
                            are divided into 10 groups by the size of the largest town and proximity
                            to metropolitan counties. This allows for a more sophisticated
                            classification of different types of rural experiences.

                            Table 3 provides the county description, number of counties, and
                            population per square mile for each urban influence code. Urban
                            influence codes are presented in order from most urban (1) to most
                            rural (12).

        Table 3. Urban Influence Codes
       Urban
       Influence                                                                                                 Number of               Population per
       Code            County Description                                                                         Counties                 Square Mile
       Metropolitan Counties:
       1               Large metropolitan (Large metro)                                                                     414                            558
       2               Small metropolitan (Small metro)                                                                     676                         132.4
           Total                                                                                                         1,089

       Nonmetropolitan Counties:
       3               Micropolitan (micro) adjacent to large metro                                                           92                          54.7
       4               Noncore adjacent to large metro                                                                      123                           26.8
       5               Micro adjacent to small metro                                                                        301                           51.4
       6               Noncore adjacent to small metro with town                                                            358                           23.5
       7               Noncore adjacent to small metro with no town                                                         185                                5.6
       8               Micro not adjacent to metro area                                                                     282                                27
       9               Noncore adjacent to micro with own town                                                              201                           16.7
       10              Noncore adjacent to micro with no own town                                                           198                                6.7
       11              Noncore not adjacent to metro or micro with town                                                     138                                4.6
       12              Noncore not adjacent to metro or micro with no town                                                  174                                3.5
           Total                                                                                                         2,052
     Source: U.S. Department of Agriculture, Economic Research Service, 2003.



            OEI-05-06-00320      R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                                     12
A   P       P E N D         I X          ~           A


                             We compared retail pharmacies’ TRICARE classifications and urban
                             influence codes. To classify pharmacies according to TRICARE
                             standards, we used a file obtained from the Centers for
                             Medicare & Medicaid Services (CMS) to classify each pharmacy based
                             on its ZIP Code. We could not obtain the TRICARE classifications for
                             77 pharmacies.

                             TRICARE’s classifications of urban and suburban match the urban
                             influence code of metropolitan. Overall, almost all retail pharmacies
                             classified as urban or suburban by TRICARE are also classified as
                             metropolitan using urban influence codes.
                              However, classifying retail pharmacies as nonmetropolitan using urban
                             influence codes applies stricter criteria than classifying pharmacies as
                             rural using TRICARE standards. Because of TRICARE’s broad
                             definition of rural, more retail pharmacies are classified as rural under
                             TRICARE than are classified as nonmetropolitan by urban influence
                             code. In fact, of the 27,216 retail pharmacies classified as rural by
                             TRICARE, 15,686 are classified as metropolitan by urban influence
                             code. Therefore, by using urban influence codes, we were able to more
                             accurately target rural areas for our analyses. Table 4 gives the
                             number of retail pharmacies defined as urban, suburban, or rural by
                             TRICARE in each urban influence code.
        Table 4. Retail Pharmacies Defined as Urban, Rural, or Suburban by TRICARE
        in Each Urban Influence Code
                                                  Defined as Urban                         Defined as Suburban                    Designated Rural by
        Urban Influence Code
                                                       by TRICARE                                  by TRICARE                               TRICARE
        Metropolitan Counties:
        1                                                            16,772                                         7,157                                  5,902
        2                                                              2,535                                        4,865                                  9,784
            Total                                                    19,307                                       12,022                                 15,686
        Nonmetropolitan Counties:
        3                                                                     0                                          20                                1,077
        4                                                                     0                                           1                                     547
        5                                                                     5                                          56                                3,200
        6                                                                     0                                           3                                1,955
        7                                                                     0                                           0                                     431
        8                                                                   20                                           38                                2,111
        9                                                                     1                                           2                                     865
        10                                                                    0                                           0                                     382
        11                                                                    0                                           0                                     665
        12                                                                    0                                           0                                     297
            Total                                                        26                                          120                                 11,530
            Overall Total                                            19,333                                       12,142                                 27,216
    Source: OIG analysis of retail pharmacies, 2006.

               OEI-05-06-00320    R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                                      13
Δ   A P P E N D I X ~ B                                        



                   MAP OF METROPOLITAN AND NONMETROPOLITAN
                   COUNTIES




     OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                     14
A   P   P E N D            I X           ~           A
Δ       A P P E N D I X ~ C                                               



                              ANALYSES BY URBAN INFLUENCE CODE
                              The following tables provide the analyses presented in the report broken
                              down by urban influence codes.

                              Urban influence codes are presented in order from most urban (1) to
                              most rural (12).




        Table 5. Retail Pharmacy Participation Rates by Urban Influence Codes
                                                       Percentage of Retail Pharmacies
                                                           Participating in at Least One                                       Total Number of
          Urban Influence Code                             Prescription Drug Plan (PDP)                                       Retail Pharmacies
          Metropolitan Counties:
          1                                                                                                97%                                   29,868
          2                                                                                                98%                                   17,211
              Total                                                                                        98%                                   47,079

          Nonmetropolitan Counties:
          3                                                                                                98%                                     1,099
          4                                                                                                98%                                        548
          5                                                                                                98%                                     3,265
          6                                                                                                98%                                     1,959
          7                                                                                                96%                                        431
          8                                                                                                96%                                     2,169
          9                                                                                                98%                                        869
          10                                                                                               97%                                        382
          11                                                                                               99%                                        666
          12                                                                                               97%                                        297
              Total                                                                                        97%                                   11,685

              Overall Total                                                                                97%                                   58,768
        Source: Office of Inspector General analysis of retail pharmacy participation in PDPs, 2006.




           OEI-05-06-00320        R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                                15
      A   P    P E N D             I X           ~            C           





Table 6. Independent and Chain Retail Pharmacy Participation by Urban Influence Codes
                                                Percentage of                                                                   Percentage of
                                           Independent Retail                                                                     Chain Retail
                                                  Pharmacies                              Number of                               Pharmacies                             Number of
                                            Participating in at                    Independent Retail                       Participating in at                         Chain Retail
  Urban Influence Code                        Least One PDP                              Pharmacies                           Least One PDP                             Pharmacies
  Metropolitan Counties:
  1                                                                 94%                                      9,612                                99%                        20,256
  2                                                                 94%                                      5,733                                99%                        11,478
      Total                                                         93%                                    15,345                                 99%                        31,734

  Nonmetropolitan Counties:
  3                                                                 95%                                         439                             100%                            660
  4                                                                 97%                                         328                             100%                            220
  5                                                                 96%                                      1,521                                99%                         1,744
  6                                                                 96%                                      1,173                              100%                            786
  7                                                                 95%                                         324                             100%                            107
  8                                                                 93%                                      1,104                                99%                         1,065
  9                                                                 96%                                         556                             100%                            313
  10                                                                97%                                         322                             100%                             60
  11                                                                97%                                         385                             100%                            281
  12                                                                97%                                         229                             100%                             68
      Total                                                         96%                                      6,381                              100%                          5,304

      Overall Total                                                 94%                                    21,727                                 99%                        37,041
Source: Office of Inspector General analysis of retail pharmacy participation in PDPs, 2006.




                   OEI-05-06-00320        R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                                                  16
       A      P   P E N D          I X            ~            C           





   Table 7. Beneficiary Choice in PDPs by Urban Influence Codes
                                                 Percentage of Retail                                 Percentage of Retail                             Percentage of Retail
                                                     Pharmacies That                                     Pharmacies That                                   Pharmacies That
                                                Participate in 100% of                         Participate in at Least 75%                            Participate in at Least
  Urban Influence Code                                PDPs in Region                                    of PDPs in Region                            50% of PDPs in Region
  Metropolitan Counties:
  1                                                                            69%                                                  95%                                  97%
  2                                                                            71%                                                  95%                                  97%
      Total                                                                    70%                                                   95%                                 97%

  Nonmetropolitan Counties:
  3                                                                            75%                                                  97%                                  99%
  4                                                                            68%                                                  93%                                  98%
  5                                                                            71%                                                  94%                                  97%
  6                                                                            65%                                                  92%                                  97%
  7                                                                            58%                                                  89%                                  97%
  8                                                                            69%                                                  92%                                  96%
  9                                                                            65%                                                  93%                                  97%
  10                                                                           49%                                                  86%                                  92%
  11                                                                           64%                                                  91%                                  95%
  12                                                                           45%                                                  79%                                  92%
      Total                                                                    67%                                                   93%                                 97%

      Overall Total                                                            70%                                                  94%                                  97%
Source: Office of Inspector General analysis of retail pharmacy participation in PDPs, 2006.




                   OEI-05-06-00320         R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                                          17
        A     P   P E N D             I X           ~            C           





   Table 8. Beneficiary Choice in PDPs by Participating Pharmacy Type and Urban Influence Code
                                            Percentage of Retail                             Percentage of Retail                                   Percentage of Retail
                                             Pharmacies That                                   Pharmacies That                                  Pharmacies That Participate
                                           Participate in 100% of                         Participate in at Least 75%                             in at Least 50% of PDPs
                                              PDPs in Region                                  of PDPs in Region                                           in Region
  Urban Influence Code                     Independent                    Chain                  Independent                    Chain             Independent              Chain
  Metropolitan Counties:
  1                                                     40%                  83%                              85%                 99%                           93%         99%
  2                                                     44%                  84%                              86%                 99%                           93%         99%
      Total                                             41%                  83%                              86%                 99%                           93%         99%


  Nonmetropolitan Counties:
  3                                                     54%                  88%                              92%               100%                            97%        100%
  4                                                     52%                  91%                              87%               100%                            97%        100%
  5                                                     49%                  89%                              89%                 99%                           95%        100%
  6                                                     48%                  90%                              87%                 99%                           95%        100%
  7                                                     47%                  87%                              87%                 97%                           96%        100%
  8                                                     52%                  86%                              85%                 99%                           92%        100%
  9                                                     50%                  90%                              90%                 98%                           96%         98%
  10                                                    41%                  87%                              83%               100%                            91%        100%
  11                                                    46%                  89%                              87%                 97%                           91%        100%
  12                                                    32%                  88%                              73%                 99%                           90%         99%
      Total                                             49%                  88%                              87%                 99%                           94%        100%


      Overall Total                                     44%                  84%                              86%                 99%                           93%         99%
Source: Office of Inspector General analysis of retail pharmacy participation in PDPs, 2006.




                      OEI-05-06-00320        R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                                            18
Δ   A P P E N D I X ~ D



                   AGENCY COMMENTS




     OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                     19
Δ   A C K N O W L E D G M E N T S                                                                   




                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      This report was led by Suzanne Bailey. Other principal Office of
                      Evaluation and Inspections staff from the Chicago regional office who
                      contributed include Melissa Hafner and Mollie Hertel. Other principal
                      central office staff who contributed include Linda Boone Abbott, Kevin
                      Farber, and David Graf.




        OEI-05-06-00320   R E TA I L P H A R M A C Y PA R T I C I PAT I O N   IN   M E D I C A R E PA R T D P R E S C R I P T I O N D R U G P L A N S
                                                                                                                                                        20
